Nos. 20-512, 20-520
In the

Supreme Court of the United States
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.
SHAWNE ALSTON, et al.,
Respondents.
AMERICAN ATHLETIC CONFERENCE, et al.,
Petitioners,
v.
SHAWNE ALSTON, et al.,
Respondents.
On Writs of Certiorari to the United States
Court of A ppeals for the Ninth Circuit
BRIEF FOR AMICI CURIAE DR. ELLEN J.
STAUROWSKY, DR. EDDIE COMEAUX,
DR. JOSEPH N. COOPER, DR. BILLY HAWKINS,
DR. AMANDA PAULE-KOBA, DR. RICHARD M.
SOUTHALL, AND DR. ROBERT W. TURNER, II
IN SUPPORT OF RESPONDENTS
Seth A. Rosenthal
Counsel of Record
Mitchell Y. Mirviss
Elizabeth C. Rinehart
Victoria L. Glover
Venable LLP
600 Massachusetts Avenue, NW
Washington, DC 20001
(202) 344-4000
sarosenthal@venable.com
Attorneys for Amici Curiae
302876

i
QUESTION PRESENTED
Whether the Ninth Circuit erroneously held, in
conflict with decisions of other circuits and general
antitrust principles, that the National Collegiate Athletic
Association eligibility rules regarding compensation of
college athletes violate federal antitrust law.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

T he NCA A doe s not a d here t o a n
“athletes-must-not-be-paid” conception of
amateurism . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. The NCAA’s claim to a “no pay” conception
of amateurism conf licts with the
NCAA’s own “Principle of Amateurism”  . . 6
B. The NCA A’s claim to a “no pay”
conception of amateurism conflicts with
its authorization of ever-increasing
financial benefits for college athletes . . . . . . 9

II. The NCAA does not adhere to the avocational
conception of amateurism reflected in its
“Principle of Amateurism” . . . . . . . . . . . . . . . . . 14
A. Plaintiffs pursue sports as a vocation. . . . . 15

iii
Table of Contents
Page
B. Plaintiffs are the foundation of a multibillion-dollar commercial enterprise . . . . . 24
III. The injunction does not compromise the
NCAA’s actual conception of amateurism . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Nat’l Collegiate Athletic Ass’n v.
Bd. of Regents of Univ. of Okla.,
468 U.S. 85 (1984) . . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 15
O’Bannon v. Nat’l Collegiate Athletic Ass’n,
7 F. Supp. 3d 955 (N.D. Cal. 2014), aff ’d
in par t, vacated in par t, 802 F.3d 1049
(9th Cir. 2015)  . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes and Other Authorities
A Day in the Life of a Division I Football Player,
Next College Student Athlete (Oct. 3, 2017)  . . . . . .  17
Allen L. Sack & Ellen J. Staurowsky, College Athletes
for Hire: The Evolution and Legacy of the NCAA
Amateur Myth 18 (1998)  . . . . . . . . . . . . . . . . . . . .  7, 10
Andrew Lisa, The Money Behind the March Madness
Tournament, YahooSports.com (Mar. 9, 2020) . . . . 27
Bill King, Race for Recruits, SportsBusiness Journal
(Dec. 5, 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Billy Hawkins, The New Plantation: Black Athletes,
College Sports, and Predominantly White
Institutions 134 (2010) . . . . . . . . . . . . . . . . . . . . . . . . 25

v
Cited Authorities
Page
Billy Witz, A Cal Football Player Opted Out Because
of the Virus. Then Came the Tuition Bill, N.Y.
Times (Nov. 20, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . 24
Breno Bragam et al., Wealth Inequality is a
Barrier to Education and Social Mobility,
Urban Institute, 1 (Apr. 28, 2017) . . . . . . . . . . . . . . . 34
Brian Rauf, Here’s The Purchase Price Of The Last 10
NFL Franchises Sold—And Who Bought Them,
Chat Sports (Dec. 18, 2017) . . . . . . . . . . . . . . . . . . . . 29
Clare Duffy, The Top NCAA Apparel Deals
for 2017-2018, Portland Business Journal
(Apr. 27, 2018)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Daniel Libit & Michael McCann, Pro-NCAA
Athletes Petitioning SCOTUS Struggle to Stay
on Message, Sportico (Mar. 2, 2021), https://www.
sportico.com/leagues/college-sports/2021/proncaa-athletes-petitioning-scotus-struggleto-stay-on-message-1234623765/ . . . . . . . . . . . . . . . 34
Dave Sheingold, March Ma dness Players
G r a d u a ti n g L e s s T h a n T h e i r Pe e r s,
northjersey.com (Mar. 23, 2017)  . . . . . . . . . . . . .  20-21
David Hedlund & Michael Naylor, Determinants
Impacting Why College Sports Fans Purchase
Merchandise, J. Contemp. Athletics 14(1)
(2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25, 29

vi
Cited Authorities
Page
Dennis Dodd, New Rights Deal Gets Big 12 As Close
as Possible to Its Own Network with Football Title
Games on ESPN, CBSSports.com (Apr. 10, 2019) . 28
Eddie Comeau x, Toward a More Cr itical
Understanding of the Experiences of Division
I College Athletes, Higher Education: Handbook
of Theory and Research 6 (L.W. Perna ed.)
(2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17, 18, 19, 25
Equity in Athletics Disclosure Act Cutting Tool . . . . . 23
Garrett Mosher, Biggest Brands in College Football
– How Brands Are Effectively Activating Their
Sponsorships, Hookit.com (Aug. 20, 2019) . . . . . . . . 27
Growth, Opportunities, Aspirations, and Learning
of Students in College (GOA LS) Study,
NCAA (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 18
Jason Smith, A Scholarship Offer Is Not A
Guarantee, So What Is It?, USA Today
(Nov. 1, 2017)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Jessica Lee, LSU’s Football Team Has a New $28
Million Locker Room — Complete With Sleep
Pods, a Pool, and a Mini Theater, Business Insider
(Aug. 30, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Katie Lever, Flaws of the 20-hour Rule, The Huddle
(June 4, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

vii
Cited Authorities
Page
Kevin Ayers, et al., The 20-Hour Rule: StudentAthletes Time Commitment to Athletics and
Academics, 33 VAHPERD 1, 22-26 (2012)  . . . . . . . 18
Kevin Draper & Alan Blinder, SEC Reaches $3
Billion Deal With Disney, Drawing CBS Ties
Toward An End, N.Y. Times (Dec. 10, 2020) . . . . . . 28
Kristi Dosh, College Football Playoff Payouts for
2019, Businessofcollegesports.com (Dec. 28, 2019) 27
Luke Decock, ACC’s Financials, Including Lowest
Power 5 Payouts to Schools, A Window Into
Its Past, News and Observer ( July 24, 2020) . . . . . 28
Manie Robinson, Staying Power: Clemson
Football Has Changed the Game in Facilities,
The Greenville News (July 2019) . . . . . . . . . . . . .  31-32
Margaret Cahalan et al., Indicators of Higher
Education Equity in the United States: 2020
Historical Trend Report 142 (2020) . . . . . . . . . . . . . 34
Mark Schlabach, Playoff Approved, Questions
Remain, ESPN.com (2012)  . . . . . . . . . . . . . . . . . . . . 27
Merriam-Webster.com (2021) . . . . . . . . . . . . . . . . . . . . . . 7
M ichael P rest on, Co ul d th e Nex t Pa c-12
Rights Deal Go Digital?, Cougcenter.com
(Apr. 21, 2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

viii
Cited Authorities
Page
Michael Rosenberg, Change is Long Overdue:
College Football Players Should Be Paid, Sports
Illustrated (Aug. 26, 2010) . . . . . . . . . . . . . . . . . . . . . . 9
Michelle Brutlag Hosick, Division I Council
Tables Proposal on Name, Image, Likeness and
Transfers, NCAA Media Center (Jan. 11, 2021) . . . 13
NCAA, Defining Countable Athletically-Related
Activities (May 13, 2009) . . . . . . . . . . . . . . . . . . . . . . 16
NCAA Division I Manual, Art. 2.9 (2020) . . . . . . . . . . . . 7
NCAA Manual, Art. 1.3.1  . . . . . . . . . . . . . . . . . . . . . . . . . 7
NCAA Manual, Art. 12.01.2 . . . . . . . . . . . . . . . . . . . . . . . 7
NCAA Manual, Art. 12.02.10 . . . . . . . . . . . . . . . . . . . . 9-10
NCAA Manual, Art. 17.1.7 . . . . . . . . . . . . . . . . . . . . . . . . 16
NCAA Manual, Art. 17.1.7.3.2 . . . . . . . . . . . . . . . . . . . . .  17
NCAA Manual, Art. 20.9.2(e) . . . . . . . . . . . . . . . . . . . . . 15
NCAA Salaries: 2020 NCAAB Coaches’ Pay . . . . . . . . 30
NCAA Salaries: 2020 NCAAF Coaches Salaries
(Nov. 17, 2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

ix
Cited Authorities
Page
NCAA Salaries: NCAAF Power Five Assistant
Coaches Salaries (Dec. 16, 2020) . . . . . . . . . . . . . . . . 30
NCAA’s “Principle of Amateurism” . . . . . . . . . . . . passim
Remarks of President Emmert, NCAA 2012
State of Association 11 . . . . . . . . . . . . . . . . . . . . . . . .  17
Richard. M. Southall & Ellen J. Staurowsky,
Cheering on the Collegiate Model: Creating,
Disseminating, and Embedding the NCAA’s
Redefinition of Amateurism, J. Sport and
Soc. Issues (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
R ic h a r d S out h a l l et a l ., 2 0 2 0 Adj u s t e d
Graduation Gap Report: NCAA Division-I
Basketball 6 (Apr. 7, 2020) . . . . . . . . . . . . . . . . . . . . . 22
Richard M. Southall et al., 2020 Adjusted
Graduation Gap Report: NCAA FBS Football 6
(Jan. 10, 2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Robert Case et al., An Examination of The
Nature and Scope of Academic Clustering
in College Athletic Programs, J. of Contemp.
Athletics 11 (1) (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . 19
Robert Litan et al., The Empirical Effects of
Collegiate Athletics: An Interim Report,
National Collegiate Athletic Association
(Aug. 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

x
Cited Authorities
Page
Roman Stubbs, Big Ten formally announces
six-year media rights deal with ESPN FOX
and CBS, Wash. Post (July 24, 2017)  . . . . . . . . . . . . 28
Ryan Brewer, College Football Value Rankings,
Wall St. J. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Steve Berkowitz, NCAA Unveils Proposed Rules
Changes Related to Athletes’ Name, Image and
Likeness, USA Today (Nov. 13, 2020)  . . . . . . . . . . . 12
Todd Petr, Trends in Graduation Success Rates
and Federal Graduation Rates at NCAA
Division I Schools 41 (2020) . . . . . . . . . . . . . . . . 20, 21
Wallace Renfro, Amateurism, Professionalism,
Commercial Activity and Intercollegiate
Athletics: Ambivalence About Principles,
Proceedings from the Santa Clara Institute
of Spor ts Law and Ethics Spor ts Law
Symposium (Sept. 6, 2012) . . . . . . . . . . . . . . . . . . . . . 26
Walter Byers, Unspor tsmanlike Conduct:
Exploiting College Athletes 69 (1995) . . . . . . . . . . . . .3
Who’s the Highest-Paid Person in Your State?,
ESPN.com (Mar. 20, 2018) . . . . . . . . . . . . . . . . . . . . . 30
Will Hobson & Steven Rich, Why Students Foot
the Bill For College Sports, and How Some Are
Fighting Back, Wash. Post (Nov. 20, 2015) . . . . . . . 31

1
INTEREST OF AMICI CURIAE1
A mici are Dr. Ellen J. Staurowsky, Dr. Eddie
Comeaux, Dr. Joseph N. Cooper, Dr. Billy Hawkins,
Dr. Amanda Paule-Koba, Dr. Richard M. Southall, and
Dr. Robert W. Turner, II. One is a former director of
college athletics, three are former college coaches, and all
but one are former college athletes. Most relevant here,
all are professors at major research universities who focus
their scholarship on college athletics and college athletes,
particularly in the revenue-generating sports of FBS
football and Division I basketball.
Collectively, amici have engaged in well over a century
of quantitative and qualitative research on the demands
placed upon college athletes, the sprawling commercial
enterprise big-time college sports has become, and
the concept of “amateurism” in college sports. Amici’s
research has consistently confirmed what the lower courts
in this case and O’Bannon v. NCAA found: the NCAA’s
conception of amateurism is malleable, and for more
than 70 years, it has not meant that “athletes must not
be paid.” Moreover, amici’s research shows that, for the
revenue-generating sports, the NCAA and its members
have abandoned the traditional avocational conception of
amateurism expressed in the NCAA’s rules and turned
it on its head. Schools fervently recruit football and
basketball players—who are disproportionately Black—
for their athletic prowess and earn billions of dollars from
1. The parties have consented to the filing of this brief. No
counsel for a party authored the brief in whole or in part. No
party, counsel for a party, or any person other than amici curiae
and their counsel made a monetary contribution intended to fund
the preparation or submission of the brief.

2
their undercompensated labor based on the promise of
an education. Yet because sports dictate every facet of
their college experience, the education they are provided
is an impoverished one. FBS football and Division I
basketball players are not “amateurs” pursuing sport as
an avocational supplement to their schoolwork.
Amici’s interests are not limited to their scholarship.
Because they are passionate about college athletes’
success as athletes, students and citizens, amici spend
considerable time teaching and mentoring athletes. Their
discussions include the performance pressures athletes
face, the consequences of underperforming, the near
impossibility of navigating such challenges to obtain a
fulfilling education, and the burdens of racial injustice.
Amici see first-hand how all-encompassing big-time
college sports is and how the NCAA and its members
profit off athletes without providing them either a full
educational experience or a just share of the money their
hard work generates. Through their scholarship and their
university positions, amici advocate for college athletes to
receive a meaningful education, complemented by, rather
than sacrificed for, athletic pursuits.
Based on their decades of experience, amici believe
that permitting college athletes to receive compensation
related to their education will not only preserve the
NCAA’s real-world conception of amateurism, but also
help to address the unfairness that taints college sports.
This Court should affirm the judgment below.

3
SUMMARY OF THE ARGUMENT
I. The NCAA’s bid for antitrust immunity turns on
the assertion that amateurism means “athletes must not
be paid.” A district court, upheld on appeal, thoroughly
and correctly rejected that linchpin claim on a full trial
record not only in this case, but also in O’Bannon v. Nat’l
Collegiate Athletic Ass’n, 7 F. Supp. 3d 955 (N.D. Cal.
2014) (“O’Bannon I”), aff’d in part, vacated in part, 802
F.3d 1049 (9th Cir. 2015) (“O’Bannon II”). The District
Court’s unchallenged fact findings reflect the reality
that the NCAA does not adhere to a “no pay” conception
of amateurism in either word or deed. First, under the
NCAA Constitution’s own “Principle of Amateurism,”
amateurism means that sports are an avocational pursuit,
a complement to a college athlete’s education. The
“Principle” is silent on the issue of pay. Second, for the
past century, the NCAA has authorized ever-expanding
financial benefits for college athletes. As the courts below
determined, these benefits are “pay” under any coherent
definition of the term.
II. The NCAA also does not adhere to the avocational
conception of amateurism reflected in its “Principle of
Amateurism.” Consistent with the “Principle,” the NCAA
refers to college athletes as “student-athletes,” a term
that long-time NCAA President Walter Byers admitted
he coined to avoid having to pay workers’ compensation to
athletes who got injured and to recharacterize the “pay
for play” system many thought was established with the
advent of the previously outlawed athletic scholarship in
1956. 2 The notion conveyed by the term “student-athlete”
is that college athletes are students first and athletes
2. Walter Byers, Unsportsmanlike Conduct: Exploiting
College Athletes 69 (1995).

4
second—that sports really are an avocational supplement
to education, as the “Principle” envisions.
For FBS football and Division I basketball players
(“plaintiffs”), this is a fiction. By every objective
measure—recruitment, basis of scholarship, time
commitment, course scheduling, coursework rigor, and
graduation rates—plaintiffs are engaged in a vocation.
Valued for their athletic (not academic) prowess, they
are athletes first. The NCAA effectively sought to deny
this reality at trial, arguing that its anticompetitive rules
enhance athletes’ educational experience by integrating
them into the student community. But the District Court
rejected this justification, and the NCAA did not appeal.
Moreover, plaintiffs, who are disproportionately
Black, are the foundation of a multi-billion-dollar business
that is anything but “amateur.” Yet because of the
challenged NCAA rules, they are the only participants
in this enterprise who are restricted from receiving
compensation commensurate with their value. The NCAA’s
“Principle of Amateurism” holds that “student-athletes
should be protected from exploitation by professional
and commercial enterprises.” But as a “professional and
commercial enterprise” that exploits college athletes—
using the money they generate for skyrocketing coaches’
salaries, palatial facilities, and intensive recruitment
efforts—the NCAA and its members betray this supposed
core tenet.
III. The NCAA, therefore, does not adhere either
to its asserted “no pay” conception of amateurism or
to the avocational conception reflected in its “Principle
of Amateurism.” The conception it does embrace is the

5
one the District Court found based on a full trial record:
with noteworthy exceptions, it tries to distinguish college
athletes from professional athletes by tying the benefits
they can receive to their education. 3 The injunction
the District Court issued will not violate, and is fully
consistent with, this conception. In fact, as the NCAA’s
own expert testified, the more financially secure college
athletes are, the better they will perform academically.
If anything, the remedy the District Court ordered is too
modest to realize the NCAA’s stated objective of fostering
the education of college athletes.
ARGUMENT
I.

The NCAA does not adhere to an “athletes-mustnot-be-paid” conception of amateurism.

According to the NCAA, Nat’l Collegiate Athletic
Ass’n v. Bd. of Regents of Univ. of Okla., 468 U.S. 85
(1984), validated the “no pay” conception of amateurism
by stating that, to preserve the NCAA’s product, college
athletes “must not be paid.” That is untrue. As the
Ninth Circuit ruled, Board of Regents discussed the
NCAA’s payment rules to explain why the restraint
challenged there—which did not implicate the payment
rules—should be analyzed under the Rule of Reason,
rather than invalidated per se. O’Bannon II, 802 F.3d
3. This conception is unfounded. What distinguishes college
athletes from the pros, and what consumers value, is not that their
pay reflects malleable educational costs, but rather that they are
students who attend schools that claim the loyalty of millions of
regional supporters and alumni. O’Bannon I, 7 F. Supp. 3d at 1001.
The challenged NCAA rules do not implicate college athletes’
status as university students.

6
at 1069. Board of Regents’ statement about the “no pay”
conception of amateurism “was not based on any factual
findings in the trial record[,] … did not serve to resolve
any disputed issues of law,” and even contradicted the
NCAA’s own counsel’s assertion at oral argument that
the NCAA was not relying on any theory of amateurism
as a procompetitive justification. O’Bannon I, 7 F. Supp.
3d at 999-1000.
Since Board of Regents, the authenticity of the NCAA’s
claim to a “no pay” conception of amateurism has been
tested twice in the crucible of trial, first in O’Bannon and
again here. Each time, the District Court found the NCAA’s
claim to be unconvincing. Pet. App. 84a-92a4; O’Bannon I,
7 F. Supp. 3d at 999-1000. These findings reflect obvious
truths. For a century, the “Principle of Amateurism” in
the NCAA Constitution has been about the pursuit of
sport as an avocation—a complement to education—not
about “no pay.” And in rearguard accommodations to
the burgeoning professionalization of college sports, the
NCAA has sanctioned a growing number and amount of
financial benefits for college athletes.
A.

The NCAA’s claim to a “no pay” conception
of amateurism conflicts with the NCAA’s own
“Principle of Amateurism.”

The “Principle of A mateurism” in the NCA A
Constitution holds that “[s]tudent-athletes shall be
amateurs in an intercollegiate sport, and their participation
4. Citations to “Pet. App.” are to the Appendix in No. 20512. Citations to “ER” are to the Excerpts of Record in the Ninth
Circuit.

7
should be motivated primarily by education and by the
physical, mental and social benefits to be derived. Student
participation in intercollegiate athletics is an avocation,
and student-athletes should be protected from exploitation
by professional and commercial enterprises.” 5 As the
District Court observed, this principle is “circular”
because it uses the word “amateur” to define amateurism.
Pet. App. 82a. But as to the NCAA’s asserted fidelity to a
“no pay” conception of amateurism, it is illuminating. It
says nothing about compensation or pay. Pet. App. 82a.
Also, unlike the “no pay” conception, it describes what
amateurism is, rather than what it is not. And what it is,
under this affirmative theory, is the pursuit of sport as
an avocational supplement to education. In this way, the
NCAA’s principle of amateurism draws on the aristocratic
19th Century British ideal of amateurism6 and resembles
the dictionary definition of “amateur”—“one who engages
in a pursuit, study, science, or sport as a pastime rather
than as a profession.” Merriam-Webster.com (2021) (last
visited March 8, 2021).
T he companion to the NCA A’s “ P r inciple of
Amateurism” is the “Clear Line of Demarcation,” which
holds that college athletics are distinct from professional
sports because athletes are “an integral part of the
student body.” 7 Like the “Principle,” the “Clear Line”
5. NCAA Division I Manual, Art. 2.9 (2020), https://www.
ncaapublications.com/productdownloads/D121.pdf [hereinafter
NCAA Manual].
6. Allen L. Sack & Ellen J. Staurowsky, College Athletes for
Hire: The Evolution and Legacy of the NCAA Amateur Myth 18
(1998) [hereinafter College Athletes for Hire].
7. NCAA Manual, Arts. 1.3.1 & 12.01.2.

8
says nothing about pay. It distinguishes college athletes
from professional athletes not because they do not receive
“pay,” but rather because they are supposed to be students
first—“an integral part of the student body.”
As explained in Section II, big-time college football
and basketball do not resemble the idyllic conception
of amateurism presented in the “Principle” and the
“Clear Line.” Indeed, in the late 2000s, the NCA A
acknowledged the public perception that college sports
are not a pastime, while still touting their connection to
education, by abandoning the term “amateur athletics”
and adopting the term “the collegiate model of athletics”
instead.8 Correspondingly, when NCAA officials talk about
amateurism now, they assiduously avoid saying what they
claim amateurism is and instead, as in this case, describe
what they claim it is not—i.e., “not pay.” Former NCAA
President Myles Brand had this exchange with Sports
Illustrated (SI) in 2010, the year after O’Bannon was filed:
Brand: They can’t be paid.
SI:

Why?

Brand: Because they’re amateurs.
SI:

What makes them amateurs?

Brand: Well, they can’t be paid.
8. Richard. M. Southall & Ellen J. Staurowsky, Cheering on
the Collegiate Model: Creating, Disseminating, and Embedding
the NCAA’s Redefinition of Amateurism, J. Sport and Soc. Issues,
403-429 (2013).

9
SI:

Why not?

Brand: Because they’re amateurs.
SI:

Who decided they’re amateurs?

Brand: We did.
SI:

Why?

Brand: Because we don’t pay them.9
Nonetheless, the avocational conception of amateurism
has remained a central feature of the NCAA’s rules for
a century. O’Bannon I, 7 F. Supp. 3d at 974. That is why
it is remarkable that, although its argument for antitrust
immunity turns on “amateurism,” the NCAA does not
mention its own “Principle of Amateurism” anywhere in
its brief. Then again, because the “Principle” contradicts
the NCAA’s linchpin claim to a “no pay” conception of
amateurism, the omission is not that remarkable.
B. The NCAA’s claim to a “no pay” conception of
amateurism conflicts with its authorization of
ever-increasing financial benefits for college
athletes.
An equally fatal problem for the NCAA’s claim is
that, under NCAA rules, “pay” means whatever the
NCAA says its means. Under Article 12.02.10 of the
9. Michael Rosenberg, Change is Long Overdue: College
Football Players Should Be Paid, Sports Illustrated (Aug. 26, 2010),
https://www.si.com/more-sports/2010/08/26/pay-college.

10
NCAA Bylaws, “Pay is the receipt of funds, awards or
benefits not permitted by the governing legislation of the
Association for participation in athletics.” And, what the
NCAA considers “pay” has morphed repeatedly to permit
athletes to receive ever-increasing financial benefits that
constitute “pay” under any intelligible definition of the
word. Pet. App. 84a-90a.
For fifty years after enacting its first set of bylaws
in 1906, the NCAA forbade athletic scholarships, called
“grants-in-aid,” deeming them “pay” that violated
traditional amateur norms. Pet. App. 141a-142a. However,
in the absence of an enforcement regime, many schools
sought to gain a competitive advantage by compensating
players under the table, giving them make-work jobs, or
providing them loans that did not require repayment.10 In
1956, after tolerating unauthorized payments for decades,
the NCAA finally permitted schools to offer grants-in-aid
covering tuition, fees, room, board, and incidental costs.
O’Bannon II, 802 F.3d at 1054.
What the NCAA previously said was a blatant violation
of amateur ideals became part of the fabric of college
sport, with schools providing each scholarship athlete a
grant-in-aid package that, depending on the institution,
totaled tens of thousands of dollars every year.11 For the
rest of the 20 th century, the NCAA tinkered with the
grant-in-aid as an acceptable form of pay, for instance
eliminating incidental expenses in 1976, Pet. App. 69a,
and establishing a Student Assistance Fund in 1991 to
help athletes with exceptional financial needs.
10. College Athletes for Hire, supra note 6, at 35-40.
11. Id. at 18.

11
In recent years, acceptable forms of pay (or “not pay”
in the NCAA’s lexicon) have increased. Grants-in-aid now
include the full cost of attendance, a federally determined
amount for each school that covers not only tuition, but
also fees, books, room and board, and additional expenses
associated with attending school. Pet. App. 9a-10a. The
difference between the old grant-in-aid and the so-called
“full cost-of-attendance grant-in-aid” is thousands of
dollars, provided in the form of an unmonitored cash
stipend. Pet. App. 9a-10a.
The NCAA also has permitted schools to provide
athletes unlimited food, necessary medical care up to
two years post-eligibility, and un-itemized $30 per-diems
during travel for championship events. Pet. App. 10a.
Further, schools may now provide full cost-of-attendance
grants-in-aid to athletes who already receive Pell Grants
(up to $6,000), which are themselves calculated to cover
the cost of attendance. Pet. App. 90a.
The NCAA authorizes other benefits above the full
cost-of-attendance grant-in-aid. With money from the
once modest Student Assistance Fund and a similar
Academic Enhancement Fund, schools can pay athletes to
meet financial needs both related and unrelated to their
education, including money for academic achievement or
graduation awards, school supplies, post-eligibility aid
for graduate school or additional undergraduate study,
internship fees, career assessments, clothing, travel,
grocery reimbursements, family expenses, loss-of-value
insurance policies, car repair, legal services, parking
tickets, and magazine subscriptions. Pet. App. 89a-90a.
The only limit on the amount an athlete may receive is
the aggregate amount the NCAA makes available for

12
distribution each year, which is now over $120 million
between the two funds. Pet. App. 9a n.3. Since 2015,
individual athletes have received Student Assistance Fund
disbursements in the tens of thousands of dollars above
the full cost-of-attendance grant-in-aid and as much as
$50,000 in premiums for insurance against the loss of
future professional earnings. Pet. App. 88a-89a.
There is more. The NCAA permits each school to give
$10,000 Senior Scholar Awards to two athletes each year
for post-eligibility graduate school at any institution. Pet.
App. 9a n. 2. Athletes who perform well in the Olympics
can receive unlimited compensation for their performance,
with some athletes earning six figures. Pet. App. 113a.
Significantly, an athlete whose team qualifies for postseason competition now may receive “performance
awards” in cash-equivalent Visa cards valued at several
hundred dollars per award, for a possible total of up to
$5,600 per year. Pet. App. 10a.
The NCAA is poised to go further. In November
2020, the Division I Council issued a proposal that would
allow athletes to receive compensation for the use of their
names, images and likenesses, including by promoting
products, signing autographs, providing instruction, and
crowdfunding for educational expenses.12 In January
2021, the Council tabled the proposal but resolved to enact
“new rules allowing student-athletes to benefit from their
12. Steve Berkowitz, NCA A Unveils Proposed Rules
Changes Related to Athletes’ Name, Image and Likeness,
USA Today (Nov. 13, 2020), https://www.usatoday.com/story/
spor ts/college/2020/11/13/ncaa-nil-name-image-likenessproposal/6281507002/.

13
name, image and likeness and expanding opportunities.”13
The Division I Board of Directors approved the Council’s
decision, “reaffirm[ing] the Association’s commitment to
providing name, image and likeness opportunities to all
its student athletes at the first practicable opportunity.”
Because all of these benefits are “not pay” in the
NCAA’s eyes, it is easy to see why the District Court
concluded that “[t]he rules that permit, limit, or forbid
student athlete compensation and benefits do not follow any
coherent definition of amateurism, including Defendants’
proffered definition of no ‘pay for play,’ or even ‘pay.’ The
only common thread underlying all forms and amounts
of currently permissible compensation is that the NCAA
has decided to allow it.” Pet. App. 92a. The O’Bannon
District Court, on a similar factual record, made the same
historically accurate finding about the “malleab[ility of]
the NCAA’s definition of amateurism.” O’Bannon I, 7 F.
Supp. 3d at 1000.
NCA A officials have themselves confirmed the
fallacy of the NCAA’s claim to a “no pay” conception of
amateurism. Former NCAA Vice President David Berst
observed that the NCAA’s definition of “amateur” is
“not steeped in any sacred absolute principle that had
to be preserved” and “continues to be a balancing of
vocation vs. avocation influences and can be modified as
views change while preserving the line between us and
the pros.” ER681. In a 2018 interview, NCAA President
13. Michelle Brutlag Hosick, Division I Council Tables
Proposal on Name, Image, Likeness and Transfers, NCAA Media
Center (Jan. 11, 2021), https://www.ncaa.org/about/resources/
media-center/news/division-i-council-tables-proposals-nameimage-likeness-and-transfers.

14
Mark Emmert similarly conceded that “the concept [of
amateurism] has evolved and constantly does,” explaining
that the NCAA’s “representative governmental system
sits and makes all the rules and they evolve that definition,
and likely will continue to.” ER685.
For over a century, the NCA A’s conception of
amateurism has constantly “evolved” to permit college
athletes to receive escalating—though still significantly
suppressed—benefits based on their participation in
sports. The trial record in this case, like the trial record
in O’Bannon, proved that the NCAA does not adhere to
the view that “athletes must not be paid.”
II. The NCAA does not adhere to the avocational
conception of amateurism reflected in its “Principle
of Amateurism.”
Although the NCAA does not embrace a “no pay”
conception of amateurism, it does not promote an
avocational conception of amateurism either. Its “Principle
of Amateurism” is a myth.
Plaintiffs’ lived experience establishes that they are
athletes first, pursuing sports as a vocation. They are
recruited for their athletic ability, retained on scholarship
based on their athletic achievement, devote dozens of
hours every week to their sports, subordinate their
academic commitments, and graduate at rates well below
the rates of their peers.
Moreover, although the “Principle of Amateurism”
purports to protect plaintiffs from commercial exploitation,
the NCAA itself exploits plaintiffs to fuel a multi-billion-

15
dollar business. This is the stark opposite of an amateur
endeavor, and it is by design. In 1973, when reorganizing
its members into Divisions I, II, and III, the NCAA stated
its objective of having Division I schools “sponsor[] at
the highest feasible level of intercollegiate competition
one or both of the traditional spectator oriented, incomeproducing sports of football and basketball.”14 The NCAA
and its members have succeeded beyond their wildest
dreams. The business of college football and basketball
has proliferated to the point that it looks nothing like it
did in 1984, when this Court decided Board of Regents.
It is no wonder that, for public relations and litigation
purposes, the NCAA has abandoned defining amateurism
according to its own “Principle” and has sought to advance
the “no pay” conception instead.
A.

Plaintiffs pursue sports as a vocation.

By every meaningful indicator, sports occupy a
position of primacy in the lives of FBS football and
Division I basketball players. Contrary to the NCAA’s
“Principle of Amateurism,” they do not take a backseat
to education.
Athletic commitment. Despite the fact that they must
take a full course-load, plaintiffs spend as much time on
sports as their professional counterparts, both in-season
and out-of-season. According to a 2015 NCAA survey,
FBS football players spent 42 hours per week on athletic
activities in-season, while men’s and women’s basketball
players spent 34 and 35 hours, respectively. ER674.
14. NCAA Manual, Art. 20.9.2(e).

16
Football and men’s basketball players spent more time on
sports than academics in-season, and women’s basketball
players spent only two hours more on academics than
athletic activities. ER676. Further, 76% of FBS football
players, 71% of men’s basketball players, and 59% of
women’s basketball players spent as much or more time
on athletics out-of-season versus in-season.15
These figures far exceed the 20 hours per week that
the NCAA, in a nod to the avocational ideal, permits
college athletes to devote to sports in-season and the
eight hours per week allotted out-of-season.16 The NCAA
circumvents these blatant rule violations through creative
accounting. Under the rules, “countable” activities include
practice, games, coach-initiated athletic meetings, game
film review, required participation in camps or clinics,
and individual out-of-season instruction with a coach. But
many effectively obligatory activities are “uncountable,”
including travel to and from competition, compliance
meetings, training room treatments, injury rehabilitation,
medical visits, recruiting activities, non-supervised weight
training, and team promotional and media activities team
community service.17 Significantly, on game day, no more
than three hours may be counted, even though athletes
spend far more time traveling to, preparing for, meeting
15. Growth, Opportunities, Aspirations, and Learning of
Students in College (GOALS) Study, NCAA 39 (2015), https://
www.ncaa.org/sites/default/files/GOALS_convention_slidebank_
jan2016_public.pdf [hereinafter GOALS Study].
16. NCAA Manual, Art. 17.1.7.
17. Katie Lever, Flaws of the 20-hour Rule, The Huddle
(June 4, 2020), https://www.lrt-sports.com/blog/flaws-of-the20-hour-rule/; NCAA, Defining Countable Athletically-Related
Activities (May 13, 2009), https://www.ncaa.org/sites/default/
files/Charts.pdf.

17
after, and returning from every game.18 As a result of all of
these “uncountable” hours, one study found that a football
player’s in-season day typically includes a regimented 19
hours of activities, but only 5.5 of those hours count toward
the 20-hour rule.19
NCAA President Emmert remarked in January 2012
that “[t]he model of scholarship support … is now more
than 40 years old. But 40 years ago student-athletes
weren’t putting in 40 to 50 hours a week working on their
sport and competing at the highest levels.”20 Dr. Emmert’s
use of the word “working” to describe what college
athletes do is as illuminating as his acknowledgment that
they are putting in “40 to 50 hours a week”—not 20 hours
a week—“on their sport.”
School attendance, scheduling, and performance.
Although the time commitment alone is grueling, plaintiffs
also endure intense physical activity, frequent injuries,
including a risk of traumatic brain injuries, and mental
fatigue. 21 All of this often leaves them unable to focus
on academics, even if their schedules permitted them to
attend class regularly, which they don’t. The business
18. NCAA Manual, Art. 17.1.7.3.2.
19. A Day in the Life of a Division I Football Player, Next
College Student Athlete (Oct. 3, 2017), https://www.ncsasports.
org/blog/2017/10/03/day-life-division-football-player/.
20. Remarks of President Emmert, NCAA 2012 State of
Association 11, https://www.ncaa.org/sites/default/files/Final%2
BState%2Bof%2BAssociation%2Btranscript.pdf
21. Eddie Comeaux, Toward a More Critical Understanding
of the Experiences of Division I College Athletes, Higher
Education: Handbook of Theory and Research 6 (L.W. Perna ed.)
(2020).

18
of college sports requires extensive travel for televised
games. In 2015, FBS football players reported missing an
average of 1.3 classes per week in-season, while Division
I men’s and women’s basketball players reported missing
2.2 and 2.5 classes per week—with 21% and 22% missing
over three classes per week. 22 The predictable result is
that big-time football and basketball players simply “do
not perform as well in the classroom as their nonathlete
counterparts.” 23 At least one study has demonstrated
that it is athletic demands, rather than athlete aptitude,
that leads to lower performance, a conclusion reinforced
by data showing that athletes in revenue-producing
sports perform better on their coursework during the
off-season. 24
Athletic obligations also preclude plaintiffs from
taking both typical course loads and courses they might
otherwise choose. When course schedules and practice
schedules conflict, plaintiffs know practice comes first. 25
In 2015, 50% of FBS football players, 34% of men’s
basketball players, and 51% of women’s basketball players
self-reported that sports prevented them from taking
classes they wanted to take. 26 Relatedly, to accommodate
athletic demands and remain academically eligible, college
athletes are often clustered in courses and academic
programs that are less rigorous. In a 2017 survey of NCAA
22. GOALS Study, supra note 15, at 41.
23. Comeaux, supra note 21, at 6.
24. Id. at 30.
25. Kevin Ayers, et al., The 20-Hour Rule: Student-Athletes
Time Commitment to Athletics and Academics, 33 VAHPERD
1, 22-26 (2012).
26. GOALS Study, supra note 15, at 13.

19
Division I academic advisors, nearly three-quarters
of participants (72.6%) expressed a belief that athlete
clustering occurs, primarily at the Division I level and
especially among large football programs. Over 90%
indicated that clustering occurs from a moderate to a very
frequent level and 66% reported witnessing clustering
“first-hand.” 27
Clustering has consequences antithetical to the
Principle of Amateurism’s emphasis on education. First,
athletes might not be interested in the programs and
courses recommended to them, which will result in
reduced engagement and less chance of long-term success.
Second, clustering limits athletes’ access and exposure
to the full spectrum of educational opportunities enjoyed
by their non-athlete peers. Third, clustering reduces the
potential benefits athletes can obtain from their education
because it can limit their future employment options. 28 As
with so much of the big-time college athlete experience,
the harms of clustering disproportionally affect Black
athletes. 29 A 2009 study “found that White players in
general were overrepresented in business programs,
whereas non-White players were overrepresented in
general studies and behavior sciences.” 30
Graduation rates. Reflecting the outsize role that
sports play in their collegiate experience, big-time football
27. Robert Case et al., An Examination of The Nature and
Scope of Academic Clustering in College Athletic Programs, J. of
Contemp. Athletics 11 (1), 47-57 (2011).
28. Comeaux, supra note 21, at 27.
29. Id.
30. Id.

20
and basketball players graduate at lower rates than other
athletes and other students under every known evaluation
measure. The disparities for Black football and basketball
players are even more pronounced. Graduation rates for
football and basketball players have improved in recent
years, but the significant gaps between them and other
students persist.
Each year, the Department of Education calculates
the Federal Graduation Rate (FGR) to track students
who graduate within six years of enrollment at their
schools. The recent FGR analysis for the four-year 20172020 cohort shows that, whereas the graduation rate for
both athletes overall and students overall was 69% at
Division I universities, the graduation rates for football
and men’s and women’s basketball were 62%, 50%, and
60%. The figures for Black football and men’s basketball
players were even less favorable—57% and 48%—while
they were equivalent for women’s basketball players,
60%. 31 All of these are consistent with historical trends. 32
Taking a snapshot of these trends, a study of players from
the 64 teams who participated in the NCAA’s 2017 men’s
basketball tournament showed that the players’ collective
FGR was 21.5% lower than the collective FGR of the
student population at their schools. 33
31. Todd Petr, Trends in Graduation Success Rates and Federal
Graduation Rates at NCAA Division I Schools 41 (2020), https://
ncaaorg.s3.amazonaws.com/research/gradrates/2020/2020D1RES_
FedGSRTrends.pdf.
32. Id. at 49-52.
33. Dave Sheingold, March Madness Players Graduating
Less Than Their Peers, northjersey.com (Mar. 23, 2017), https://
www.northjersey.com/story/sports/college/basketball/2017/03/23/

21
The NCAA objects to the FGR because it counts
students who leave school early or transfer to another
school while in academic good standing. The NCAA thus
has devised its own Graduation Success Rate (GSR), which
excludes athletes who leave early or transfer from a school
and includes athletes who transfer to a school. But by
excluding athletes who leave early, the GSR artificially
inflates graduation numbers. Moreover, the GSR does
not compare athlete graduation rates with graduation
rates for students overall. Nonetheless, even using the
GSR, FBS football and basketball players graduate at
lower rates than athletes overall, and Black football and
basketball players graduate at lower rates still. 34
The College Sport Research Institute has devised
a graduation measure that seeks to resolve the parttime student bias in the FGR (which includes part-time
students, though college athletes are full-time) and the
athlete-only bias of the GSR by calculating and comparing
graduation rates for athletes and full-time students.
CSRI’s “Adjusted Graduation Gap” analysis shows that
graduation rate disparities between FBS football and
Division I basketball players and full-time students overall
are even greater than the FGR indicates.
Consistent with AGG analyses for the past decade, the
most recent analysis of FBS football players shows that
players at Power Five schools graduate at rates 16.5%
lower than full-time male students, with the disparity
march-madness-basketball-tournament-players-graduating-lessgraduation-rates/99509216/.

34. Petr, supra note 31, at 41; Sheingold, supra note 33.

22
for Black players at 21.6%. 35 The most recent analysis for
Division I men’s and women’s basketball, also consistent
with a ten-year trend, shows they graduate at rates 23.6%
and 12.9% lower than full-time male and female students,
respectively, at their schools, with the disparity for Black
men’s and women’s players at major conference schools at
37% and 20.6%. 36 In contrast to the NCAA’s narrative that
gaps are narrowing, the athlete/full-time student gaps
have widened for men’s and women’s basketball players
over the past decade. 37
Scholarships based on athletic, not academic,
prowess. Plaintiffs are recruited and awarded scholarships
based on their athletic performance, not their academic
performance. They are effectively commodities—as
athletes, not students. Their value in the college sports
marketplace is tracked through indices such as The Rivals
150, a prospect ranking system for high school basketball
players, MaxPreps High School Football Recruiting 100
run by CBS Sports, and ESPN’s 300 ranking for high
school football players.

35. Richard M. Southall et al., 2020 Adjusted Graduation
Gap Report: NCAA FBS Football 6 (Jan. 10, 2020), https://
static1.squarespace.com/static/5de5182fe743cb648d87d098/
t / 5 e 3 4 9 1d 8 e 3 5 b 7 14 8 d d 0 b d e 4 9 / 1 5 8 0 5 0 3 5 1 2 0 8 1 / 2 0 1 9 20+CSRI+NCAA+FBS+FB+AGG+Report.pdf.
36. Richard Southall et al., 2020 Adjusted Graduation Gap
Report: NCAA Division-I Basketball 2 (Apr. 7, 2020), https://
static1.squarespace.com/static/5de5182fe743cb648d87d098/t/5e
ceb461bcf8b9772c6fb77c/1590604898519/2019-20+Basketball+
AGG+Report_5-24-2020.pdf.
37. Id.

23
The value placed on plaintiffs’ athletic talent is
evidenced by the ever-increasing amount of money
dedicated to recruitment. Big-time programs now spend
millions of dollars every year to recruit the best athletes.
Collective recruiting expenses in the Power Five—the
Atlantic Coast, Big Ten, Big 12, Pac-12 and Southeastern
Conferences—increased respectively by 228%, 475%,
229%, 131%, and 238% in the 15-year period between 200304 and 2018-19. For many elite football and basketball
schools, including Clemson, Louisville, Indiana, Michigan,
Penn State, Baylor, Texas A&M, Alabama, Georgia, and
Kentucky, recruiting expenses at least tripled during
that period. 38
Prized for their athletic ability, plaintiffs retain their
scholarships based on athletic performance. A coach may
decline to renew an annually renewable scholarship if an
athlete who remains academically eligible gets injured,
or fails to perform as expected, or if there is a new coach
and a change in team plans or better players are recruited
in subsequent years. At the same time, a coach can retain
scholarships for athletes who become academically
ineligible. 39
The primacy of plaintiffs’ value as athletes, rather
than students, has been reinforced over the past year, as
many schools responded to the COVID-19 pandemic by
converting to online learning and removing students from
38. Equity in Athletics Disclosure Act Cutting Tool, http://
ope.ed.gov/athletics/.
39. Jason Smith, A Scholarship Offer Is Not A Guarantee, So
What Is It?, USA Today (Nov. 1, 2017), https://usatodayhss.com/2017/
a-scholarship-offer-is-not-a-guarantee-so-what-is-it.

24
campus, while keeping football and basketball players on
campus to practice and compete, even as virus outbreaks
mushroomed and forced cancellation of practices and
games.40 Although athletes theoretically have had the
opportunity to opt out, the reality has been different—and
not simply because of the inherent pressure and desire
players feel to participate. Utah State football coach Greg
Anderson explained that the reason none of his players
opted out was because “it’s not an option. If you opt out,
you’re not with us.”41 In a less explicit example, in June
2020, at the height of the pandemic, Henry Bazakas,
a University of California football player recognized
three times for earning the team’s highest grade-point
average, contacted the head coach to opt out of his final
year of eligibility because of the pandemic. Within nine
days, he received a bill for $24,000 and a notice that his
summer-term scholarship had been rescinded. After
Bazakas appealed and won, the athletics department,
which fought the appeal, claimed there had been a clerical
error—but only after The New York Times inquired about
the matter.42
B. Plaintiffs are the foundation of a multi-billiondollar commercial enterprise.
Big-time football and basketball are a vast business
enterprise that rivals the business of professional sports.
40. Billy Witz, A Cal Football Player Opted Out Because
of the Virus. Then Came the Tuition Bill, N.Y. Times (Nov. 20,
2020), https://www.nytimes.com/2020/11/20/sports/ncaafootball/
cal-walk-on-scholarship.html.
41. Id.
42. Id.

25
The combined revenues for the NCAA and its largest
members—approximately $10.21 billion annually—
would make American college sports the second largest
sports league in the world.43 Like professional sports, the
primary sources of this revenue are television rights and
merchandising. And like professional sports, the profits
pay for multi-million-dollar coaching salaries, expansive
facilities, scouting, and recruiting. The critical difference
is, unlike in professional sports, the NCA A and its
members do not have to share the revenue with the players
responsible for generating it. The only participants in this
enterpise who are “amateurs” are the players.
The casualty of this arrangement is the final leg of
the NCAA’s “Principle of Amateurism,” which provides
that athletes “should be protected from exploitation by
professional and commercial enterprises.” The NCAA
itself is a “professional and commercial enterprise” that
exploits college athletes. The system it has established
dispropotionately benefits “(privileged) White athletic
power brokers—for example, coaches, athletic directors,
conference commissioners, and externalities such as
sponsors” by “relying on the sweat and undercompensated
athletic labor of amateur athletes, who more often than not
are Black students.”44 NCAA officials make the assertion
that “student-athletes are amateur, intercollegiate

43. David Hedlund & Michael Naylor, Determinants
Impacting Why College Sports Fans Purchase Merchandise, J.
Contemp. Athletics 14(1), 17-35 (2020).
44. Comeaux, supra note 21, at 4; see also Billy Hawkins, The
New Plantation: Black Athletes, College Sports, and Predominantly
White Institutions 134 (2010).

26
athletics is not,”4 5 but even they acknowledge the
contradiction. As NCAA Vice President Wally Renfro
advised then-incoming President Emmert in 2010:
There is a general sense that intercollegiate
athletics is as thoroughly commercialized as
professional sports. Some believe that athletics
departments study how to emulate the pros
on marketing their sports (primarily football
and basketball), and sometimes lead the way.
And the public would generally agree that has
all taken place at the expense of the studentathlete whose participation is exploited to make
another buck for a bigger stadium, the coaches,
the administrators or for other teams who can’t
pay their own way. It is a fairness issue, and
along with the notion that athletes are students,
is the great hypocrisy of intercollegiate
athletics.
O’Bannon II, Nos. 14-11601, 14-17068 (9th Cir.), Supp.
Excerpt of Record, at SER413-414 (Jan. 21, 2015) (Dkt
36-4).
Where the money comes from. The lifeblood of the
college sports industry is television rights. For its March
Madness championship basketball tournament, NCAA
originally entered into a $10.8 billion, 14-year contract
with CBS Sports and Turner Broadcasting and later
4 5. Wa l lace Ren f ro, Am ateur ism , Professio nalism ,
Commercial Activity and Intercollegiate Athletics: Ambivalence
About Principles, Proceedings from the Santa Clara Institute of
Sports Law and Ethics Sports Law Symposium (Sept. 6, 2012).

27
negotiated an eight-year extension worth $8.8 billion,
set to expire in 2034. 46 The College Football Playoff,
consisting of just seven games, has a similarly lucrative
deal with ESPN, which agreed to pay over $5 billion, or
roughly $470 million annually, to televise Playoff games
from 2014-2025. 47 The Playoff has actually exceeded
expectations: the total payout to participating conferences
in 2019 was more than $674 million.48
These massive deals are not limited to post-season
competition. The conferences have lucrative television
rights contracts for regular season games. For example,
“between July 1, 2016 and June 30, 2017, the SEC
conference alone generated almost $967 million in revenue
and the 2017-18 college athletics season saw $1.24 billion
spent on sponsorship with football leading the way.”49 The
SEC also negotiated a record-breaking contract during
46. Andrew Lisa, The Money Behind the March Madness
Tournament, YahooSports.com (Mar. 9, 2020) https://www.yahoo.
com/now/money-behind-march-madness-ncaa-194402803.html.
47. Mark Schlabach, Playoff Approved, Questions Remain,
ESPN.com (Jun. 26, 2012), http://espn.go.com/college-football/
story/_ /id/8099725/college-football-playoff-approved-questionsremain.
48. K risti Dosh, College Football Playoff Payouts for
2019, Businessofcollegespor ts.com (Dec. 2 8, 2019), https://
businessofcollegesports.com/football/college-football-playoffpayouts-for-2019/.
49. Garrett Mosher, Biggest Brands in College Football – How
Brands Are Effectively Activating Their Sponsorships, Hookit.com
(Aug. 20, 2019), https://www.hookit.com/insights/biggest-brandsin-college-football-how-brands-are-effectively-activating-theirsponsorships/.

28
the pandemic. With its existing contract with CBS ending
in 2023-2024, it entered into a $3 billion, 10-year contract
with ESPN for its football games. 50 The other Power Five
conferences have similarly remunerative agreements with
their media partners: the ACC for $3.6 billion over 15
years, an average of $240 million per year; the Big Ten for
$2.64 billion over six years, an average of $433 million per
year; the Big 12 for $2.73 billion over 13 years, an average
of $222 million per year; and the PAC-12 for $3 billion over
12 years, an average of $250 million per year. 51
Beyond selling television rights, the college sports
industry recognizes billions in revenue from merchandising
and apparel. CLC Learfield IMG College Licensing—with
a client list of over 550 of the nation’s top colleges and
50. Kevin Draper & Alan Blinder, SEC Reaches $3 Billion Deal
With Disney, Drawing CBS Ties Toward An End, N.Y. Times (Dec.
10, 2020), https://www.nytimes.com/2020/12/10/sports/ncaafootball/
sec-disney-deal.html.
51. Luke Decock, ACC’s Financials, Including Lowest Power
5 Payouts to Schools, A Window Into Its Past, News and Observer (
July 24, 2020), https://www.newsobserver.com/sports/spt-columnsblogs/luke-decock/article244461752.html; Roman Stubbs, Big Ten
formally announces six-year media rights deal with ESPN FOX
and CBS, Wash. Post (July 24, 2017), https://www.washingtonpost.
com /news/terrapins-insider/wp/2017/07/24 / big-ten-formallyannounces-six-year-media-rights-deal-with-espn-fox-and-cbs/;
Dennis Dodd, New Rights Deal Gets Big 12 As Close as Possible to
Its Own Network with Football Title Games on ESPN, CBSSports.
com (Apr. 10, 2019), https://www.cbssports.com/college-football/
news/new-rights-deal-gets-big-12-as-close-as-possible-to-its-ownnetwork-with-football-title-games-on-espn/; Michael Preston, Could
the Next Pac-12 Rights Deal Go Digital?, Cougcenter.com ( Apr. 21,
2020), https://www.cougcenter.com/2020/4/21/21230390/pac-12-tvdeal-pac-12-network-larry-scott-apple-amazon-netflix.

29
universities, plus bowl games, athletic conferences, the
Heisman Trophy, and the NCAA—has conservatively
returned $2 billion to its clients through licensing
merchandise agreements. 52 The annual value of Power
Five school contracts with three footwear and apparel
companies—Adidas, Nike, and Under A rmour—is
estimated at more than $212 million. 53
The sum total of all of these revenue streams has
created football and basketball programs that are valued
in the hundreds of millions of dollars. Among the top 30
football programs, valuations range from a high of over
$1 billion for Texas, Ohio State and Alabama to a low of
$270 million for Oklahoma State. 54 Putting these figures
in perspective, the Buffalo Bills, an NFL franchise, sold
for $1.1 billion in 2014. 55
Where the money goes. Spared by the NCA A’s
anticompetitive rules from having to share their revenue
with the predominantly Black athletes whose efforts
produce it, athletic departments engage in a budgetary
52. Hedlund & Naylor, supra note 43, at 17-35.
53. Clare Duffy, The Top NCAA Apparel Deals for 2017-2018,
Portland Business Journal (Apr. 27, 2018), https://www.bizjournals.
com/portland/news/2017/08/31/see-the-top-ncaa-apparel-dealsfor-2017-18.html.
54. Ryan Brewer, College Football Value Rankings, Wall St.
J., https://graphics.wsj.com/table/NCAA_2019.
55. Brian Rauf, Here’s The Purchase Price Of The Last 10
NFL Franchises Sold—And Who Bought Them, Chat Sports (Dec.
18, 2017), https://www.chatsports.com/nfl/a/heres-purchase-pricelast-10-nfl-franchises-sold-and-who-bought-them-36635.

30
arms race.56 They pay more and more for the best coaches
and the best facilities, trying to lure away the best players
from their competitors so that they can field even better
teams—and make even more money.
Head coaches in the major football and basketball
conferences earn multi-million-dollar salaries that match
those of their peers in professional sports. The 64 highest
paid football coaches earn at least $2.3 million per year,
with Nick Saban of Alabama topping the list at over $9
million. 57 The 58 highest paid men’s basketball coaches
make at least $2 million per year, with Kentucky’s John
Calipari earning over $8 million. 58 It does not end with
head coaches. Over 25 assistant football coaches earn
over $1 million per year and 175 earn at least $500,000
per year. 59 It is a well-known fact that, in most states, the
highest paid public employee is either a college football or
men’s basketball coach.60
56. Robert Litan et al., The Empirical Effects of Collegiate
Athletics: An Interim Repor t, National Collegiate Athletic
Association (Aug. 2003), https://www.ncaa.org/sites/default/files/
empirical_effects_of_collegiate_athletics_interim_report.pdf.
57. NCAA Salaries: 2020 NCAAF Coaches Salaries (Nov.
17, 2020), https://sports.usatoday.com/ncaa/salaries.
58. NCAA Salaries: 2020 NCAAB Coaches’ Pay, https://
sports.usatoday.com/ncaa/salaries/mens-basketball/coach.
59. NCAA Salaries: NCAAF Power Five Assistant Coaches
Salaries (Dec. 16, 2020), https://sports.usatoday.com/ncaa/salaries/
football/assistant.
60. Who’s the Highest-Paid Person in Your State?, ESPN.
com (Mar. 20, 2018), https://www.espn.com/espn/feature/story/_/
id/22454170/highest-paid-state-employees-include-ncaa-coachesnick-saban-john-calipari-dabo-swinney-bill-self-bob-huggins.

31
These extravagant coaching salaries are matched
only by the lavish facilities that schools build to recruit
players. The decade between 1995 and 2005 was marked
by an “… unprecedented building boom for athletic
programs on campuses across the United States, with
at least $15.2 billion spent on sports facilities,”61 Over
the past 15 years, these amounts have only grown. An
analysis of 48 Power Five schools in the single year of
2014 revealed a total of $772 million spent on upgrading or
building athletic facilities, an increase of 89% from what
was spent in 2004.62 In 2019, Louisiana State opened a
$28 million football locker that features sleep pods similar
to a first-class airline seat, a pool, and a mini-theater.63
Clemson University’s $55 million football facility has
hydrotherapy pools, pool tables, TVs, easy chairs, snacks,
drink dispensers, a barber shop, a mini-golf course, a twolane bowling alley, a slide between floors, and an outdoor
lounge area with fire pits and beach volleyball.64
61. Bill King, Race for Recruits, SportsBusiness Journal
(Dec. 5, 2005), http://w w w.sportsbusinessdaily.com/Journal/
Issues/2005/12/20051205/SBJ-In-Depth/Race-For-Recruits.aspx.
62. Will Hobson & Steven Rich, Why Students Foot the Bill
For College Sports, and How Some Are Fighting Back, Wash.
Post (Nov. 20, 2015), https://www.washingtonpost.com/sports/
why-students-foot-the-bill-for-college-sports-and-how-some-arefighting-back/2015/11/30/7ca47476-8d3e-11e5-ae1f-af46b7df8483_
story.html.
63. Jessica Lee, LSU’s Football Team Has a New $28
Million Locker Room — Complete With Sleep Pods, a Pool, and
a Mini Theater, Business Insider (Aug. 30, 2019), https://www.
businessinsider.com/louisiana-state-university-football-lockerroom-athletic-facility-2019-8.
64. Manie Robinson, Staying Power: Clemson Football
Has Changed the Game in Facilities, The Greenville News (July

32
The supposed “clear line of demarcation” that the
NCAA says it seeks to maintain between college and
pro sports does not exist. Big-time college football and
basketball are every bit as professionalized as the NFL,
NBA, and WNBA. The NCAA’s “Principle of Amateurism”
and its admonition against the commercial exploitation
of college athletes is an empty husk. It is untenable for
the NCAA and its members to realize ever-increasing
revenues from football and basketball while paradoxically
claiming that the mostly Black athletes whose efforts
generate the income are “amateurs.”
III. The injunction does not compromise the NCAA’s
actual conception of amateurism.
The District Court determined that the evidence
did not support the NCA A claim that amateurism
means “athletes must not be paid.” Pet. App. 92a. The
District Court instead found that the NCAA embraces a
“narrower” conception of amateurism, which hinges on
restricting athlete pay “unrelated to education, akin to
salaries seen in professional sports leagues.” Pet. App.
37a (citing Pet. App. 108a). Holding that this conception
has certain pro-competitive benefits, the District Court
entered an injunction that “remove[s] limitations on most
education-related benefits provided on top of a grantin-aid, while allowing the NCAA to limit cash or cashequivalent awards or incentives for academic achievement
or graduation to the same extent it limits athletics
awards.” Pet. App. 163a. The Ninth Circuit agreed with
the District Court’s analysis and affirmed.
2019), https://w w w.greenvilleonline.com/story/sports/college/
clemson/2019/07/30/staying-power-clemson-football-facility-collegeathletics-facilities/1839960001/.

33
The lower courts were correct in finding that the
NCAA’s hews to a different, narrower conception of
amateurism than the one it claimed and, further, that
the injunction would not undermine it. As explained in
Section I, plaintiffs already receive certain financial
benefits related to education, as well as some not related
to education. As explained in Section II, plaintiffs
pursue their sports as a vocation and power a massive
commercial enterprise. The education-related benefits
that the injunction permits will hardly compromise the
conception of amateurism that reflects these realities.
By allowing the NCAA to continue to restrict unlimited
payments unrelated to education, the injunction preserves
the very distinction—the only distinction—that the
NCAA, in practice, seeks to maintain between college
and professional athletes.
If anything, the injunction is too limited to realize the
NCAA’s stated goal of improving the education of college
athletes. The NCAA’s own expert, Dr. James Heckman,
“conceded that additional compensation could improve
outcomes for student-athletes, belying the notion that
the challenged compensation limits, as they currently
stand, are necessary to achieve positive student-athlete
outcomes. Additionally, other evidence shows that studentathlete achievement, as measured by graduation rates, has
increased since 2015, when permissible athletics-related
compensation increased.” Pet. App. 150a.
Amici agree that educational outcomes for athletes
improve when athletes have greater financial security.65
65. Some of the college athlete amici who support the NCAA’s
position appear to agree that payments to college athletes would

34
A 2020 study by the Pell Institute found that “estimated
bachelor’s degree attainment rates by age 24 based on
CPS household survey data were 4 times greater for
dependent family members from the highest family income
quartile than for those from the lowest family income
quartile (62 percent vs. 16 percent).”66 Likewise, according
to an Urban Institute study, “High-wealth youth have a 70
percent chance of completing at least two years and a 43
percent chance of completing at least four years of college.
Similar young people in low-wealth families have only a
41 percent chance of completing at least two years and
a 24 percent chance of completing at least four years.”67
By permitting schools to offer plaintiffs enhanced
education-related benefits, the injunction is likely to
bolster, rather than harm, their scholastic achievement.
In fact, if the injunction is vulnerable to any criticism, it
is that it does not go as far as it could to support plaintiffs’
education. As the evidence in this case and the above-cited
be beneficial. Daniel Libit & Michael McCann, Pro-NCAA Athletes
Petitioning SCOTUS Struggle to Stay on Message, Sportico (Mar.
2, 2021), https://www.sportico.com/leagues/college-sports/2021/
pro-ncaa-athletes-petitioning-scotus-struggle-to-stay-onmessage-1234623765/.
66. Margaret Cahalan et al., Indicators of Higher
Education Equity in the United States: 2020 Historical Trend
Report 142 (2020), http://pellinstitute.org/indicators/downloads/
dialogues-2020_presentations_Shared_Dialogue_Discussion_
Guide.pdf.
67. Breno Bragam et al., Wealth Inequality is a Barrier
to Education and Social Mobility, Urban Institute, 1 (Apr. 28,
2017), https://www.urban.org/sites/default/files/publication/89976/
wealth_and_education_4.pdf.

35
research show, allowing plaintiffs—many of whom are
from financially insecure families—to receive greater
benefits than the injunction authorizes would likely
increase the probability of their success as students.
CONCLUSION
The judgment of the Court of Appeals should be
affirmed.
Respectfully submitted,
Seth A. Rosenthal
Counsel of Record
Mitchell Y. Mirviss
Elizabeth C. Rinehart
Victoria L. Glover
Venable LLP
600 Massachusetts Avenue, NW
Washington, DC 20001
(202) 344-4000
sarosenthal@venable.com
Attorneys for Amici Curiae

Dated: March 10, 2021

